      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




October 17, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Medicare Payments Exceeding Charges for Outpatient Services
              Processed by National Government Services in Jurisdiction 15 for the Period
              January 1, 2006, Through June 30, 2009 (A-05-10-00016)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by National Government Services in
Jurisdiction 15. We will issue this report to National Government Services within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov
or Sheri L. Fulcher, Regional Inspector General for Audit Services, Region V, at
(312) 353-2621 or through email at Sheri.Fulcher@oig.hhs.gov. Please refer to report number
A-05-10-00016.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Ave., Suite 1360
                                                                          Chicago, Illinois 60601
October 20, 2011

Report Number: A-05-10-00016

Ms. Sandra Miller
President
National Government Services
8115 Knue Road
Indianapolis, IN 46250

Dear Ms. Miller:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Payments Exceeding Charges for
Outpatient Services Processed by National Government Services in Jurisdiction 15 for the
Period January 1, 2006, Through June 30, 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact Tate Clark,
Senior Auditor, at (217) 793-5010, extension 105, or through email at Tate.Clark@oig.hhs.gov or
Stephen Slamar, Audit Manager, at (312) 353-7905 or through email at Stephen.Slamar@oig.hhs.gov.
Please refer to report number A-05-10-00016 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandra Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL


REVIEW OF MEDICARE PAYMENTS
    EXCEEDING CHARGES FOR
     OUTPATIENT SERVICES
    PROCESSED BY NATIONAL
     GOVERNMENT SERVICES
      IN JURISDICTION 15
FOR THE PERIOD JANUARY 1, 2006,
    THROUGH JUNE 30, 2009



                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-05-10-00016
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding System
(HCPCS) codes and report units of service as the number of times that a service or procedure was
performed or, if the HCPCS code is associated with a drug, the number of units administered. In
addition, providers should charge Medicare and other payers, such as private insurance companies,
uniformly. However, Medicare uses an outpatient prospective payment system to pay certain
outpatient providers. In this method of reimbursement, the Medicare payment is not based on the
amount that the provider charges. Consequently, the billed charges (the prices that a provider sets
for its services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.

During our audit period (January 1, 2006, through June 30, 2009), National Government
Services was the Medicare contractor for Jurisdiction 15 in Ohio and Kentucky. For
Jurisdiction 15, National Government Services processed approximately 195 million line items
for outpatient services during the audit period, of which 1,290 line items had (1) a Medicare line
payment amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or more
units of service. (A single Medicare claim from a provider typically includes more than one line
item. In this audit, we did not review entire claims; rather, we reviewed specific line items
within the claims that met these two criteria. Because the terms “payments” and “charges” are
generally applied to claims, we will use “line payment amounts” and “line billed charges.”)

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
National Government Services made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 1,290 selected line items for which National Government Services made Medicare
payments to providers for outpatient services during our audit period, 120 line items were
correct. Providers refunded overpayments on 201 line items totaling $742,985 before our
fieldwork. The remaining 969 line items were incorrect and included overpayments totaling at
least $4,958,011, which the providers had not refunded by the beginning of our audit.


                                                i
Of the 969 incorrect line items:

   •    Providers reported incorrect units of service on 560 line items, resulting in overpayments
        totaling at least $3,338,648.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 142 line
        items, resulting in overpayments totaling $854,660.

   •    Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on 261 line items, resulting in overpayments totaling $740,434.

   •    Providers billed for unallowable services on four line items, resulting in overpayments
        totaling $18,586.

   •    Providers did not provide the supporting documentation for two line items, resulting in
        overpayments totaling $5,683.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
National Government Services made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place during our audit period
to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

    •   recover the $4,958,011 in identified overpayments,

    •   implement system edits that identify line item payments that exceed billed charges by a
        prescribed amount, and

    •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, regarding our first recommendation, National
Government Services said that it would review each case and work to recover the amounts due to
the program upon final determination. Citing limitations within CMS’s Part A processing
system, National Government Services stated that our second recommendation to implement
system edits would “require additional clarification and discussion.” Regarding our third
recommendation, National Government Services stated that it would continue its ongoing
provider education. National Government Services also stated that the transition to the Medicare
administrative contractor (MAC) was anticipated to be completed by October 17, 2011, and that,
as required by the transition guidelines, it would end its outreach efforts 60 days prior to the



                                                   ii
transfer of functions to the MAC. National Government Services’ comments are included in their
entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We encourage National Government Services to implement system edits to the extent possible
under its current contract with CMS.




                                              iii
                                                   TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        National Government Services ....................................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology ................................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 4
        Incorrect Number of Units of Service ............................................................................. 4
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes ............................... 5
        Services Not Allowable for Medicare Reimbursement .................................................. 5
        Unsupported Services ..................................................................................................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 6

      NATIONAL GOVERNMENT SERVICES COMMENTS ................................................. 6

      OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................... 7

APPENDIX

      NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (also known as a line
item). Providers should use the appropriate Healthcare Common Procedure Coding System
(HCPCS) codes and report units of service as the number of times that a service or procedure
was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 2 In addition, providers should charge Medicare and other payers, such as private
insurance companies, uniformly. However, Medicare uses an outpatient prospective payment
system to pay certain outpatient providers. In this method of reimbursement, the Medicare
payment is not based on the amount that the provider charges. Consequently, the billed charges
(the prices that a provider sets for its services) generally do not affect the current Medicare
prospective payment amounts. Billed charges generally exceed the amount that Medicare pays
the provider. Therefore, a Medicare payment that significantly exceeds the billed charges is
likely to be an overpayment.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.



                                                          1
National Government Services

National Government Services is the Medicare contractor for Jurisdiction 15, which consists of
Ohio and Kentucky. 3 During our audit period (January 1, 2006, through June 30, 2009),
National Government Services processed approximately 195 million line items for outpatient
services in Jurisdiction 15.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
National Government Services made to providers for outpatient services were correct.

Scope

Of the approximately 195 million line items for outpatient services that National Government
Services processed during the period January 2006 through June 2009, 1,290 line items had (1) a
Medicare line payment amount that exceeded the line billed charge amount by at least $1,000
and (2) 3 or more units of service. 4

We limited our review of National Government Services’ internal controls to those that were
applicable to the selected payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

Our fieldwork included contacting National Government Services, in Louisville, Kentucky, and
the 137 providers in Jurisdiction 15 that received the selected Medicare payments.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;



3
 CIGNA Government Services, LLC (CGS), was awarded the Part A and Part B MAC contract for Jurisdiction 15.
The Part A workload for Ohio and Kentucky will be transferred from National Government Services to CGS in
October 2011. Until then, National Government Services will continue to serve as the legacy fiscal intermediary for
providers in Ohio and Kentucky.
4
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”



                                                          2
    •   used CMS’s National Claims History file to identify outpatient line items in which
        (1) Medicare line payment amounts exceeded the line billed charge amounts by at least
        $1,000 and (2) the line item had 3 or more units of service; 5

    •   identified 1,290 line items totaling approximately $6.8 million that Medicare paid to 137
        providers;

    •   contacted 135 providers that received Medicare payments for 1,107 line items to
        determine whether the information conveyed in the selected line items was correct and, if
        not, why the information was incorrect; 6

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with National Government Services; and

    •   discussed the results of our review with National Government Services on February 8,
        2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 1,290 selected line items for which National Government Services made Medicare
payments to providers for outpatient services during our audit period, 120 line items were
correct. Providers refunded overpayments on 201 line items totaling $742,985 before our
fieldwork. The remaining 969 line items were incorrect and included overpayments totaling at
least $4,958,011, which the providers had not refunded by the beginning of our audit.

Of the 969 incorrect line items:

    •   Providers reported incorrect units of service on 560 line items, resulting in overpayments
        totaling at least $3,338,648.



5
 For this audit, we reviewed those line items that met the stated parameters. We applied these parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payments
and charges to less than $1,000.
6
 We did not review 183 of the 1,290 line items because providers refunded overpayments before our fieldwork and
because payments no longer exceeded charges by at least $1,000 for those line items.



                                                       3
    •   Providers used HCPCS codes that did not reflect the procedures performed on 142 line
        items, resulting in overpayments totaling $854,660.

    •   Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on 261 line items, resulting in overpayments totaling $740,434.

    •   Providers billed for unallowable services on four line items, resulting in overpayments
        totaling $18,586.

    •   Providers did not provide the supporting documentation on two line items, resulting in
        overpayments totaling $5,683.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
National Government Services made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place during our audit period
to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “when HCPCS codes are required for services,
the units are equal to the number of times the procedure/service being reported was performed.” 7
If the provider is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here
HCPCS is required, units are entered in multiples of the units shown in the HCPCS narrative
description. For example, if the description for the code is 50 mg, and 200 mg are provided,
units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported incorrect units of service on 560 line items, resulting in overpayments totaling
$3,338,648. The following examples illustrate the incorrect units of service:

7
 Prior to CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.



                                                       4
       •   One provider billed Medicare for incorrect service units on nine line items. Rather than
           billing 38 service units for the HCPCS code associated with these line items, the provider
           billed 380 service units. These errors occurred because the provider’s chargemaster 8 was
           incorrect. As a result of these errors, National Government Services paid the provider
           $176,896 when it should have paid $14,840, an overpayment of $162,056.

       •   Another provider billed Medicare for incorrect service units on 27 line items. Rather
           than billing for 1 service unit, the provider billed for 75 service units. These errors
           occurred because of an error in the provider’s computer software. As a result of these
           errors, National Government Services paid the provider $97,259 when it should have paid
           $1,296, an overpayment of $95,963.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 142 line items,
resulting in overpayments totaling $854,660. For example, because of human error, a provider
billed Medicare for 101 line items with an HCPCS code for an injection used to treat various
types of cancer in patients instead of the correct HCPCS code for an injection used to increase
red blood cell production and treat anemia. As a result of these errors, National Government
Services paid the provider $698,624 when it should have paid $13,731, an overpayment of
$684,893.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service claimed and incorrect HCPCS
codes on 261 line items. These errors resulted in overpayments totaling $740,434. For example,
1 provider billed Medicare for 1,248 units using HCPCS code J1950 instead of properly billing
624 units using the correct HCPCS code J9217. As a result of these errors, National Government
Services paid the provider $441,431 when it should have paid $117,196, an overpayment of
$324,235.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for four line items for which the services provided were
not allowable for Medicare reimbursement, resulting in overpayments totaling $18,586. For
example, one provider billed Medicare for two line items that were unrelated to outpatient
services. The provider incorrectly billed Medicare outpatient services for dental procedures that
are not covered by Medicare. For one such procedure, the provider billed for the extraction of a
tooth, which is not a covered procedure according to the Medicare Benefit Policy Manual
(Pub. No. 100-02, chapter 15, section 150). As a result of these errors, National Government
Services paid the provider $8,167 when it should have paid $0, an overpayment of $8,167.




8
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.


                                                           5
Unsupported Services

One provider billed Medicare for two line items for which the provider could not provide
supporting documentation. The provider agreed to cancel the claim associated with the line
items and refund the $5,683 overpayment that it received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
National Government Services made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place to prevent or detect the
overpayments. In effect, CMS relied on providers to notify the Medicare contractors of incorrect
payments and on beneficiaries to review their Medicare Summary Notice and disclose any
overpayments. 9

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect all errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.

RECOMMENDATIONS

We recommend that National Government Services:

     •   recover the $4,958,011 in identified overpayments,

     •   implement system edits that identify line item payments that exceed billed charges by a
         prescribed amount, and

     •   use the results of this audit in its provider education activities.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, regarding our first recommendation, National
Government Services said that it would review each case and work to recover the amounts due to
the program upon final determination. Citing limitations within CMS’s Part A processing
system, National Government Services stated that our second recommendation to implement
system edits would “require additional clarification and discussion.” Regarding our third
recommendation, National Government Services stated that it would continue its ongoing

9
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                         6
provider education. National Government Services also stated that the transition to the MAC
was anticipated to be completed by October 17, 2011, and that, as required by the transition
guidelines, it would end its outreach efforts 60 days prior to the transfer of functions to the
MAC. National Government Services’ comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We encourage National Government Services to implement system edits to the extent possible
under its current contract with CMS.




                                               7
APPENDIX
                                                                                                                Page 1 of 2
   _ _ _ _ APPENDIX: NATIONAL GOVERNMENT SERVICES COMMENTS

4flIII,LNational ~"t:n"IIt:'IIL
      }'I{'   services.                                                                        Medicare
     Nil tio nnl Gove rnment Services, Inc.
     811 5 Knuc ROild
     In dianapolis, Indiana 46250-1936
     A eMS COIl/racted Agml



     August 10, 2011


     Mr. James M. Barton
     Acting Regional Inspector General for Audit Services
     Office of Inspector General
     Office of Audit Services, Region V
     233 North Michigan Avenue, Suite 1360
     Chicago, IT.. 60601

     Report Number: A-05-10-00016

     Dear Mr. Barton,

     The following presents our response to the connnents made in your report dated July 11, 2011:

     Recommendation 1 - Recover the $4[958[011 in identified overoayments
     Based on the findings provided of the claim detail, NGS \Vill review each case and work accordingly to
     recover the amounts due to the program upon final determination.


     Reconnnendation 2 - Implement system edits that identify line item payments that exceed billed
     charges by a prescribed amount

     Upon further review of this recommendation, the requested edits -will require additional clarification and
     discussion. Due to system limitations -within the CMS Part A processing system, it is unclear how a
     comparison may be made prior to moving through the Pricer. Financial calculations are completed once
     the claim is stored and ready to send to CWF.

     There is a possibility to suspend certain APC or DRG, however, a manual review of many claims would
     have to be completed. This type of edit would create significant additional workload.

     If particular revenue codes or HCPC codes were identified in this review, National Government Services
     could set up an edit to suspend those meeting predetermined criteria for units and/or amount billed. This
     effort would result in a smaller additional manual effort to set up, test, and move to production. Once in
     production, there would need to be a prescribed review, either local or national, to maintain this edit for any
     needed updates.

     Further consideration is respectfully being requested -with regards to this recommendation.

     Reconnnendation 3 - Use the results of this audit in its provider education activities

     Provider Outreach and Education (POE) -will research the issues identified -within the report and the reasons
     stated by the Ohio and Kentucky providers as reasons for the incorrect overpayments. POE -will provide
     ongoing education via the National Govennnent Services web site and listserv notices to the Ohio and
     Kentucky providers regarding outpatient claim errors until August 2011. The transition to a MAC
     Jurisdiction for Ohio and Kentucky providers is anticipated to be completed by October 17, 2011; however,


                                                                                                     cAlsj 

                                                                                                           Page 2 of2




National Government Services will end its outreach efforts 60-days prior to this transition (per the 

guidelines required for this activity). Until the time of the transition, POE will monitor data for trends, 

utilization patterns, denials and provide web articles and list serves where high denials have been identified 

for outpatient services. POE will continue to send edit effectiveness web articles and list serve messages 

when edits are put in the system based on LCD edit rollouts that will affect these providers until October 

20 1l. POE will continue to do mass mailings to those providers who are identified through data that could 

be impacted by LCD edits implemented in the system. 



Sincerely yours, 


/Sharon Weddell 


Sharon Weddel, 

Director NGS Operations 

